    LEGAL SERVICES CORPORATION

       BOARD OF DIRECTORS




               America’s Partner For
               Equal Justice




SEMIANNUAL REPORT TO THE CONGRESS

          FOR THE PERIOD

 APRIL 1, 2003 – SEPTEMBER 30, 2003



                     NOVEMBER 30, 2003
             LEGAL SERVICES CORPORATION


BOARD OF DIRECTORS

Frank B. Strickland, Chairman
Lillian R. Bevier, Vice-Chair
Robert J. Dieter
Thomas A. Fuentes
Herbert S. Garten
David Hall
Michael D. McKay
Thomas R. Meites
Maria L. Mercado
Florentino Subia
Ernestine P. Watlington

SENIOR STAFF

John N. Erlenborn
President

Victor M. Fortuno
Vice President for Legal Affairs, General Counsel & Corporate Secretary

John C. Eidleman
Acting Vice President for Compliance & Administration

Randi Youells
Vice President for Programs




                                    i
                                   FOREWORD

       I am pleased to transmit the Semiannual Report of the Legal Services Corporation
(“LSC” or “Corporation”) Board of Directors (“Board”), providing comments on the
Semiannual Report of LSC’s Office of Inspector General (“OIG”) for the six-month
period of April 1, 2003, through September 30, 2003, and providing further explanation
of LSC’s activities during the reporting period.

        LSC’s Board recognizes the value of the Inspector General function and remains
committed to working with the OIG to achieve our goal of providing high quality legal
assistance to the poor of our nation.



                                                  ______________________________
                                                  Frank B. Strickland, Chairman
                                                  Legal Services Corporation
                                                  November 25, 2003




                                          ii
                                TABLE OF CONTENTS

Message of the Board of Directors .........................................................................1

Background ..........................................................................................................3
      The Legal Services Corporation ..................................................................3
      Funding and Grant-Making Activities .........................................................3

Management Initiatives............................................................................................4
      Competition..................................................................................................4
      Program Visits .............................................................................................5
      State Justice Community Work ...................................................................6
      Technology Efforts ......................................................................................7
      Work with Newly Reconfigured Programs................................................10
      Rural Initiatives..........................................................................................11
      Training......................................................................................................11
      Loan Repayment Assistance Program .......................................................11
      Promotion of Centralized Intake System ...................................................12
      Implementation of 2000 Census and the Harkin-Smith Amendment........12
      Evaluation ..................................................................................................12
      Matters .......................................................................................................13
      Diversity, Inclusion and Multi-Cultural Competency ...............................13
      Civil Asset Forfeiture Reform Act.............................................................14
      Rulemaking Activities ...............................................................................14
      Litigation Update .......................................................................................15
      Work of the Office of Compliance and Enforcement................................16

Table 1: Management Report on OIG Audit Reports of Grantees
         Issued With Questioned Costs for the Six-Month
         Period Ending September 30, 2003 ........................................................20

Table 2: Management Report on Audit Reports Issued
         During the Six-Month Period Ending
         September 30, 2003, With Recommendations
         That Funds Be Put to Better Use ...........................................................21

Appendix 1: Map Depicting Basic Field Service Areas Affected by Mergers &
            Consolidations Between 1997 and 2004




                                                    iii
                    MESSAGE OF THE BOARD OF DIRECTORS


        During the reporting period, on July 24, 2003, the ninth new Board member
appointed by President Bush was sworn into office. This new Board member, David
Hall, is a Professor of Law at Northeastern University in Boston, Massachusetts. Mr.
Hall replaces John Broderick on the Board. Maria Luisa Mercado and Ernestine
Watlington, appointed by President Clinton in 1993, continue to serve on the Board.

        The Board is pleased to have the opportunity to address the Congress and share its
perspective on the current state of federally-funded legal services for low-income
Americans. LSC is in the fourth year of implementation of its Strategic Directions 2000-
2005, the principal goals of which are to increase access to justice and improve the
quality of civil legal assistance on behalf of the needy and less fortunate. While LSC and
its grantees continue their undertaking to maximize the cost-effective use of limited
federal resources and to leverage those resources to raise funds from state and local
governments, foundations and private sources, the significant unmet need for civil legal
assistance in the Untied States reminds us starkly that we are far from achieving our
national commitment of "equal justice for all."

        LSC made continued progress in its State Justice Community Work during the
reporting period. Although LSC did not approve structural changes in any states during
the period, it continued to work actively with four (4) states that are in the process of
reconfiguration planning.1 The consolidation of service areas and programs2 undertaken
in LSC’s State Justice Community Work has been designed to maximize economies of
scale, evenly distribute access to services, and broaden the delivery of services available
to low-income clients. During the reporting period, LSC provided technical assistance to
four (4) states to assist them in planning and implementing the structural and service
delivery changes necessary to achieve State Justice Community Work objectives.
Finally, LSC staff traveled to three (3) states to conduct evaluative and planning meetings
with grantees and state equal justice planning bodies.

       During the reporting period, LSC continued work on other initiatives to support
its grantees and to improve the quality and accessibility of services, including the
continued use of technology to promote and facilitate access to legal services. It has
provided a range of technological assistance to programs during the reporting period, and
it has focused substantial attention on projects designed to increase access to legal
services through assistance to pro se litigants. Such projects include grants that provide
for the installation in some courthouses of touch-screen, self-help computer terminals
where pro se litigants can use software to generate their own pleadings in several types of
cases.


1
 Those states are Alabama; Massachusetts; Minnesota; and Missouri.
2
 ‘Programs’, ‘recipients’, and ‘grantees’ are used interchangeably in this report to refer to recipients of
LSC funding.


                                                       1
        Some of LSC’s additional efforts during the reporting period include work with
newly reconfigured service areas to ensure the development of comprehensive delivery
systems throughout enlarged geographic areas; continued program visits to discover
innovative procedures that may serve as models for other programs; attempts to address
the special problems of indigent persons in rural communities; attempts to address the
large student debt loads that frequently dissuade new lawyers from pursuing careers in
legal services programs; efforts to promote centralized intake, advice and referral systems
which enable programs to serve greater numbers of clients; continued work to promote
diversity among legal services providers; and attempts to measure non-case work
provided by grantees. LSC also continues to monitor its grantees for compliance with
federal law and LSC regulations, working closely with the Office of Inspector General.




                                            2
                                      BACKGROUND


The Legal Services Corporation
        The Legal Services Corporation is a private, non-profit corporation established in
the District of Columbia by the Legal Services Corporation Act of 1974, as amended (the
“LSC Act”),3 to provide financial support for legal assistance in civil proceedings to
persons unable to afford legal services. LSC is governed by an eleven-member bi-
partisan Board of Directors appointed by the President of the United States with the
advice and consent of the Senate. The Board appoints LSC’s President, who serves as
the Corporation’s chief executive officer, subject to general policies established by the
Board.

       The 1988 Amendments to the Inspector General Act of 1978 (“the 1978 Act”)
required LSC to establish an Office of Inspector General (“OIG”) and extended specific
provisions of the 1978 Act to LSC. Accordingly, such an office was established by and
for LSC. The Inspector General is appointed by, reports to, and serves under the general
supervision of, LSC’s Board of Directors.

Funding and Grant-Making Activities

        LSC provides funding to legal services programs serving indigent persons
throughout the 50 states, the District of Columbia, Puerto Rico, the U.S. Virgin Islands,
Guam and Micronesia. To carry out the purposes of the LSC Act, LSC received an
appropriation of $336,646,000 for Fiscal Year (“FY”) 2003. (This figure represents the
total appropriation after a .65 percent across-the-board rescission.) The full House and
the Senate Appropriations Committee have each passed an FY 2004 Budget for LSC of
$338,848,000. The House and Senate versions differ in that the House funds the Basic
Field line item at $319.5 million, while the Senate funds it at $312.3 million. The Senate
version includes a $6.7 million Census Adjustment line item, which the House does not
fund. The differences should be resolved in the final budget made part of an Omnibus
Appropriations bill, which is expected to be voted on prior to Thanksgiving.




3
    42 U.S.C. §§ 2996-2996l.


                                            3
                                  MANAGEMENT INITIATIVES


        During this reporting period, LSC continued its efforts to improve the efficiency
of its competitive grant award system and the effectiveness of the delivery of legal
assistance through its state justice community work. The Corporation continued to
demonstrate its ability to ensure both compliance with program rules and regulations, and
the maintenance of high quality legal assistance to eligible clients.

Competition
        The LSC competitive grants process remains responsive to the Congressional
requirement to award grants through a system of competition, and to assure the most
efficient and effective delivery of services to eligible low-income people. It also
continues to evolve into a more useful tool for capacity building within state justice
communities, for identifying areas of further improvement, and for networking legal
services programs. This year, LSC modified its Request For Proposals (“RFP”) to
emphasize its commitment to assuring program board and staff diversity and sensitivity
to low-income people with special access challenges, including those with limited
English proficiency and limited literacy.

        Two of LSC’s foremost objectives in the competitive grants process are 1) to
collect information necessary to determine the capacities of individual legal services
programs; and 2) to remain informed about the quality of legal services delivery
throughout the country. LSC received a total of fifty-four (54) qualified grant
applications for eighty (80) service areas in twenty-two (22) states, the District of
Columbia and American Samoa.4

        LSC staff evaluates grant applications based on the American Bar Association
Standards for the Provision of Civil Legal Services to the Poor and LSC’s Performance
Criteria. In addition to a thorough and objective evaluation of the grant applications,
LSC provides each successful grant applicant with a “feedback letter.” This is a written
assessment that addresses the potential strengths and weaknesses of the proposed delivery
strategy based on the grant application. The objectives of the feedback letter are to
improve program performance and to improve the quality of future grant applications.

        The competitive grants process is fully automated. This digital system permits
analysis of a continuous stream of current information on legal needs, response strategies,
and administrative and management systems. This allows LSC to develop greater
intelligence about the many strengths and potential weaknesses in the delivery system.

4
 LSC proposes to fund a new service area in 2004 in American Samoa. This will mark the first time in
LSC history that there will be an LSC-funded program in American Samoa to provide civil legal services to
eligible, low-income residents. U’unai Legal Services is the proposed recipient of funding for this service
area, and total funding for the program will be $305,089. Based on 2000 census data, there are
approximately 35,574 eligible, low-income people living in American Samoa.


                                                    4
Model program initiatives, advances in technology, programs’ diversity and training
strategies, and new client-centered delivery strategies are being identified through the
competition process so that they can be shared and replicated by legal services programs
throughout the country.

       Utilizing current technological opportunities, LSC has improved the efficiency of
the competition process in the following ways:

       •   It has established a comprehensive digital library for competition, which
           provides immediate electronic access to reports, analyses, decisions, and facts
           about the LSC competition process. The Library provides internet access to
           competition data, which is available at all times.

       •   It has commenced the transmission of grant award documents electronically.
           The benefits of this initiative include an electronic archive of competitive
           grant contracts, a reduction in administrative costs, and a greater convenience
           for LSC grantees.

       •   It has committed LSC grantees to having the capacity to electronically
           transmit, receive, and maintain all competitive grant documents. Requiring
           this capacity encourages grantees to maintain permanent, digital, tamper-proof
           files beyond those normally associated with competitive grant files, which
           reduces grantee administrative costs associated with postage, handling,
           printing, and distributing paper documents.

       An overview of the competitive grants process, the RFP, application instructions,
resource materials, and key competition dates are available at www.ain.lsc.gov.

Program Visits
       During the reporting period, LSC continued visiting programs to assess quality,
provide technical assistance, measure progress in achieving a comprehensive delivery
system in recently reconfigured service areas, address problems, evaluate innovative
procedures which may serve as models for other programs, and communicate LSC’s
expectations directly to grantees. These visits reaffirmed LSC’s belief that such visits
expand its understanding of programs’ activities otherwise gleaned from competition
applications, grant activity reports, and anecdotal information.

         Program visits by LSC’s Office of Program Performance (“OPP”) staff involve a
comprehensive review of program operations to evaluate the efficiency and effectiveness
of programs. The functions assessed on such visits include the establishment of
priorities; intake systems; management of legal work; governance; private attorney
involvement; resource development; and strategic planning. Following an OPP visit, it is
customary for LSC staff to send a report or letter to the program with findings and
recommendations. These letters are maintained at LSC and are available upon request.



                                            5
        LSC routinely follows up on program visits. Typically, LSC staff members will
call programs to check on progress with planned changes. Additionally, after program
visits, LSC often provides programs with innovative practice materials to assist in
improving the effectiveness of their delivery systems. In this reporting period, LSC
returned to two programs it had originally visited in 2002 and early 2003, to gauge the
programs’ progress.

        From April 1, 2003 through September 30, 2003, the Vice-President for Programs
and OPP staff and consultants visited the following fifteen (15) programs: California
Rural Legal Aid; DNA-Peoples Legal Services (serving Native Americans in Arizona,
New Mexico and Utah); Indiana Legal Services; Legal Aid and Referral Center (New
Hampshire); Legal Aid of NorthWest Texas; Legal Aid Society of Cleveland; Legal
Services Law Line of Vermont; Legal Services of Eastern Virginia; Legal Services of
Northern Michigan; MidPenn Legal Services; Montana Legal Services; New Mexico
Legal Aid; Pine Tree Legal Assistance (Maine); Statewide Legal Services of
Connecticut; and The South Carolina Centers for Equal Justice. These visits are in
addition to State Justice Community Work and Technology visits reported elsewhere in
this report.

State Justice Community Work
        LSC continues to promote efforts by its grantees to develop comprehensive,
integrated delivery systems that reach a greater number of persons, with a broader range
of services. The State Justice initiative requires grantees to work with other providers
and stakeholders within each state, such as the courts, bar associations and client groups,
to assure that a full range of high quality legal services are available to clients regardless
of their geographical location within a given state.

        During the reporting period, LSC approved no structural changes in legal services
programs, but continued to work actively with four (4) states that are in the midst of
reconfiguration planning: Alabama; Massachusetts; Minnesota; and Missouri. Ohio is
processing configuration issues and working on a new state plan, but LSC has not been
actively engaged in this process, other than to support the efforts. The consolidation of
service areas and programs enables recipients to take advantage of economies of scale, to
more evenly distribute access to services and to broaden the availability of legal services
to low-income individuals and families. Since 1998, the number of LSC grantees has
been reduced from 262 to 160 through the State Planning process.

       LSC has continued to make technical assistance available to help states plan and
implement the structural and service delivery changes necessary to reach State Justice
Community objectives. During the reporting period, the following four (4) states
received technical assistance: Alabama, Massachusetts, Minnesota, and Washington.
Alabama and Massachusetts received grants supporting reconfiguration planning.
Minnesota received a grant for creation and support of its statewide planning
commission. Washington was given funds to support joint statewide technology planning
between its legal services program and the court system.


                                              6
        During this period, LSC staff traveled to the following three (3) states to conduct
evaluative and planning meetings with grantees and state equal justice planning bodies:
Massachusetts, Minnesota and Tennessee. These visits varied in length from several days
to a week. LSC staff also attended the regional meeting of the Southeastern grantees in
Florida to discuss the State Planning process and answer grantees’ questions about the
process. Such visits inform LSC of the progress being made, as well as the challenges
that states must overcome. The visits also provide grantees and their partners with
practical information about achievements in other jurisdictions, innovative ideas, and
LSC’s expectations with regard to State Planning.

        In 2002, LSC initiated the development of an evaluation instrument designed to
assess the success of its grantees’ State Planning efforts. The instrument sets forth the
criteria and measures that LSC will use to evaluate the effectiveness of the civil legal
services delivery system within each state. Evaluations will also establish benchmarks
against which further progress can be measured and allow LSC to begin to gather data to
compare state delivery systems. Finally, the evaluations will help guide grantees as they
continue to implement initiatives or develop new initiatives to ensure the highest quality
and maximum level of services for eligible clients.

       In May of 2003, LSC conducted the last of three tests of the evaluation instrument
in Ohio, after similar tests in Washington and Kentucky. The tests indicated that the
instrument was a valid evaluation tool. The instrument was used in late October to
evaluate Virginia’s planning efforts. A joint state planning/program quality evaluation is
planned for Utah in December 2003.

         Finally, a state planning grant assurance that reiterates the necessity for ongoing
planning was developed during the reporting period and will attach to all 2004 funding.
The grant assurance asks each grantee to foster comprehensive and integrated statewide
civil legal services delivery systems, in concert with other stakeholders in their respective
states, for the benefit of clients.

       These efforts, when taken together, have resulted in significant, positive changes
for low-income clients throughout the country, including: the development of additional
resources for civil legal services; new and more efficient ways of providing legal
information and advice to low-income persons; alternative ways to serve the rural poor;
and more effective and economical structures to assure equal justice to a greater number
of Americans. LSC’s state justice initiative is moving towards a greater emphasis on
grantees’ roles in building and maintaining inclusive and collaborative state justice
communities, and away from an emphasis on reconfiguration as a tool for positive
change.

Technology Efforts
      LSC’s technology efforts consist primarily of the administration of the
Technology Initiative Grants program (“TIG”), and the awarding of grants under this


                                             7
program. The TIG program uses technology to help grantees provide assistance to low
income persons who would otherwise not receive legal assistance. This is accomplished
by means of technologically enhanced pro se and community legal education efforts, and
also by enhancing state justice systems’ technology infrastructures to allow centralized
telephone intake and delivery systems. This use of technology also allows greater
coordination among grantees.

        During the reporting period, LSC awarded fifty-one (51) new TIG grants. These
grants will enable the implementation of innovative new projects, such as a partnership
between LSC’s Colorado grantee and Colorado courts to develop free electronic-filing of
pleadings and court documents for low-income litigants. This grant will also be used to
enhance pro se representation, by providing for the installation in select county
courthouses of touch-screen, self-help computer terminals, where users will interact with
cutting-edge software to file their own claims in cases related to domestic violence,
wrongful evictions, and small claims.

        The latest cycle of TIG awards brings to 49 (out of a possible 56) the number of
states and territories that have received funding from LSC for the development of
statewide websites. LSC funding for these projects has resulted in a remarkable increase
in the online availability of legal education and pro se materials for low income persons.
A significant development for the statewide websites during the reporting period was the
completion of the “advocate template,” one of three major components of statewide
websites. The advocate template is a portal for grantee attorneys and paralegals, which
enables them to maintain brief banks for particular practice areas; post training calendars;
establish task forces on line; and maintain listservs, among other activities.

       LSC recently developed its first set of evaluation instruments for TIG grants.
These instruments will analyze work completed in the first phase of funding for the
statewide web sites. LSC continues to work on evaluation protocols for other projects.

        In addition to the work described above, during the reporting period LSC staff
devoted substantial time to technological training, program visits, and the refinement of
LSC’s internal administration and grant monitoring infrastructure. LSC staff participated
as trainers in several technological training events during the period. LSC staff also
made program visits both in connection with monitoring TIG grants, as discussed below,
and as participants in quality assurance visits discussed above in the “Program Visits”
section of this report.

Training Events

        At the Equal Justice Conference in Portland, Oregon in April 2003, LSC staff co-
presented the TIG Affinity Session, co-hosted the Cybercafe, presented one session
entitled “Evaluating Technology Projects,” and another session on Legal Service XML.
During the reporting period, LSC technology staff made presentations at the following
conferences:




                                             8
   •   MidWest Project Directors meeting in Minneapolis, Minnesota;
   •   CORT Technology Training held in Columbus, Ohio and attended by legal
       services staff from Ohio, Michigan, and West Virginia; and
   •   ABA Techshow in Chicago.

       Each year LSC hosts a TIG conference to train and educate new grant recipients.
Planning for the January 2004 training, to be held in Austin, Texas, is well underway.

   Press Events

       During the reporting period, LSC held press conferences announcing the
following 2003 TIG awards:

   •   Two awards to Ohio State Legal Services, one to establish a multi-state document
       assembly production server, and a second to create a series of assisted pro se
       document assembly products.

   •   Two awards to Legal Aid of East Tennessee. The first grant will pilot a web-
       based method for research requests from legal aid program staff, to be answered
       by law students at the University of Tennessee College of Law. The second grant
       will be used to host an open source circuit rider to provide assistance to all states
       currently adopting the Kaivo statewide website template.

   •   Three awards to California programs, announced at the ABA Annual Conference
       in San Francisco in August 2003. One award, given to Bay Area Legal Aid, will
       enable the program to implement a hotline intake system to improve access for
       clients. Another award to California Rural Legal Aid will help that program
       transition from 22 separate case management databases to a single database,
       thereby enabling the program to assist any client from any program office and
       complete system wide conflict checks. A third award to California Indian Legal
       Services will help that program continue its efforts to develop the California
       statewide web site.

Program Visits

       During the reporting period, LSC visited the following programs in connection
with specific TIG projects: DNA-Peoples Legal Services in Arizona (to review progress
on the program’s kiosk system); New Mexico Legal Aid (to monitor the program’s
technological integration of offices after the merger of several programs); and the South
Carolina Centers for Equal Justice (to assist the program in its provision of assistance
through video conferencing technology).

Refinement of the TIG Grants Management Structure

        To ensure that the TIG grant management and application processes run
efficiently and cost effectively, LSC has automated these systems. As a result,


                                            9
applications for 2003 TIG grants were submitted electronically. This automated system
allowed applicants to enter most information into an online database. The automated
application process also eliminated the need for LSC staff to perform data entry from
paper applications, giving them more time to work on other projects. A new grant
management package for the TIG program has been purchased and is being installed in
November.

        The TIG program is administered in a way that makes incremental payments
based on grant progress, rather than making lump sum awards to recipients at the outset
of the grant cycle. Specific tasks are assigned to each payment, and the complete set of
tasks or ‘milestones’ must be completed before additional funding is made available.
Automation of the milestone reporting system continued in this reporting period, and
LSC continues to refine and improve this system. At the end of 2002, LSC designed and
developed an online application that allows grantees to submit progress reports on their
grants through a website. Grants prior to 2002 have been added to the system, and this
information will be available to all TIG recipients before the end of the year.

        TIG grants are building a structure that permits income-eligible clients to get
advice and brief services through centralized intake systems, and legal education
materials on web sites. These grants also enable LSC-funded programs to make use of
the productivity benefits that come from technologically sophisticated infrastructures. By
carefully monitoring the TIG grants and overseeing project evaluations, LSC is assessing
the extent to which technological approaches can increase the amount and quality of
services to clients.

Work with Newly Reconfigured Programs
        LSC continues to work with programs serving newly-configured service areas.
Newly reconfigured programs face different types of problems depending on whether the
current grantee is the product of a merger or is taking over a new service area. Merged
programs must meld the systems and cultures of two or more prior organizations,
including the adjustment of job duties and salaries, and the establishment of priorities. A
program taking over a new service area must ensure sufficient staffing for the new area,
secure office space, and assume responsibility for unfinished cases of the prior grantee.
Extensive outreach is also usually necessary to integrate the program into the new service
area.

        LSC is taking steps to ensure that grantees are making significant progress in
achieving comprehensive delivery systems throughout service areas. As part of this
effort, LSC attached special grant conditions to FY 2004 grants. These grant conditions
require the submission of periodic written reports on specific aspects of comprehensive
delivery systems. LSC has closely analyzed these reports and provided written and oral
feedback to each grantee. During this reporting period, LSC monitored the progress of
newly reconfigured programs in Iowa; Michigan; New Jersey; North Dakota; Oklahoma;
South Carolina; Texas; West Virginia; and Wisconsin.




                                            10
Rural Initiatives
         The delivery of legal services in rural areas presents particular challenges rooted
in the isolation of rural low income populations, the distance that clients must often travel
to get assistance, and the presence of issues unique to bucolic areas. A written report on
rural delivery issues, and a summary of the November 2002 Rural Issues and Delivery
Symposium sponsored by LSC, were presented to the LSC Board of Directors on April
25, 2003.

        During the reporting period, LSC staff attended a Rural Multi-Sector Leadership
Convention in Baltimore, Maryland. This event was sponsored by the National Rural and
Policy Research Institute and funded by the W.W. Kellogg Foundation. At the end of
this period, preparation was underway for a conference on rural legal services to be co-
sponsored by LSC, and held at the National Legal Aid and Defender Association Annual
Conference in Seattle, Washington in November 2003.

Training

        In its report for the previous reporting period (i.e. October 1, 2002 through March
31, 2003), LSC described two Technology Initiative Grant (“TIG”) awards that promote
training among members of the legal services community. The first grant, to the Legal
Services Law Line of Vermont, Inc., will use technology to make the core curriculum of
the Legal Services Training Consortium of New England available nationally. This grant
will also be used to provide a platform for other legal services organizations to provide
distance learning opportunities. The second grant, to the Legal Aid Society of Orange
County (California), creates a national technology training and curriculum project to
build capacity across many audiences within the legal services community, as a means to
improve the implementation of model technology innovations that improve justice for
low-income clients. LSC continues to monitor the progress on these two grants.

       During this reporting period, LSC contracted with the National Center on Poverty
Law (“NCPL”) for use of its secured website and poverty law library by all attorneys
who have worked for LSC-funded programs for three years or less. LSC also contracted
with NCPL to provide a comprehensive subscription (i.e. six issues) to Clearinghouse
Review for these new legal services attorneys. Nearly 800 young attorneys are receiving
the benefits of this contract, which will assist them in providing quality legal
representation on poverty law issues.

Loan Repayment Assistance Program
       Many new attorneys are dissuaded from joining legal services programs because
of the heavy debt they incur to attend law school. The American Bar Association
estimates that many new attorneys have an average student debt load that exceeds
$80,000. LSC worked with the American Bar Association’s Commission on Loan
Repayment and Forgiveness to examine and report on the effect of the increasing
educational debt of new lawyers on the legal profession, and specifically, the effect of


                                             11
such debt on new lawyers interested in pursuing careers in public interest law. In August,
the Commission released its report that included proposals to mitigate the debt burden.

Promotion of Centralized Intake Systems

        Since 1996, LSC has vigorously advocated the use of telephone intake, advice and
referral systems. These systems are a gateway for clients’ receipt of program services. A
highly efficient system that makes the best use of modern technology allows a program to
provide services to a greater number of clients, while freeing up staff time for more
substantive service. In this reporting period, LSC staff provided technical assistance to
programs in California, Louisiana, Nevada, New Mexico, North Carolina, North Dakota,
Ohio, and Wisconsin in support of the implementation of centralized telephone intake,
advice, and referral systems or improvements to their systems.

Implementation of 2000 Census and the Harkin-Smith Amendment
       LSC’s appropriation act requires that it distribute funds for each geographic area
on a per capita basis relative to the number of individuals in poverty determined by the
Bureau of the Census to be within a given geographic area. The Bureau of Census
released the 2000 Census poverty population data in the summer of 2002.

        Full implementation of the new Census numbers would have caused
approximately half of LSC grantees to lose funding, while the other half would have
gained. Under the Harkin-Smith Amendment, LSC received an additional $9.5 million
for FY 2003, to mitigate the Census-related losses to grantees. These funds were
projected to cut the losses approximately in half. However, as a result of a 0.65% across-
the-board rescission included in the final FY 2003 appropriation, the actual funding
restored was somewhat less than fifty percent.

        Currently, the House language for LSC’s FY 2004 appropriation resumes the
allocation of Basic Field-General funding based solely on the Census poverty population.
The Senate version includes nearly the same funding, but continues to allocate a sum (i.e.
$6.7 million) to mitigate the funding reductions for programs that lost poverty
populations in the last decade. As of the end of the reporting period, and as of the date of
this report, the two versions of the funding language were still being reconciled.

Evaluation
       LSC believes that in order to assure the highest quality of services, there must be
rigorous evaluation of LSC’s procedures and strategies, as well as those of its grantees.
As described above, LSC’s evaluation of applications, grantees, technology projects, and
progress in building state justice communities is on-going.

      The most complex type of evaluation is that which attempts to measure outcomes.
LSC is pursuing outcome measurement in the state justice evaluation process, and in
many of the technology grants. While these are important outcome measurement efforts,


                                            12
they do not measure outcomes for clients receiving extended representation. In June of
2003, LSC partnered with the Hale and Dorr Legal Services Center, and the Bellows-
Sacks Access to Civil Legal Services Project of Harvard Law School, to sponsor the
Summit on Performance Measures: Assessing Quality and Measuring Results. The
summit focused on the measurement of outcomes for clients receiving extended
representation. LSC staff members are currently devising a strategy to further the
measurement of outcomes in situations where clients are receiving full representation.

Matters
        In the latter half of 2001, LSC implemented the Matters Service Reports (“MSR”)
to enable grantees to report services they perform that do not rise to the level of cases,
and thereby collect more accurate data on the range of services provided by grantees.
The online system for reporting Matters was modified to reflect changes made during
2002, and in January of 2003, an updated list of frequently asked questions was posted on
this system to help grantees prepare and report matters.

        The online reporting system has functioned smoothly, and in March of 2003, just
before the reporting period began, LSC received MSRs from grantees containing 2002
data with no major problems. During the reporting period, LSC’s internal committee on
Matters reviewed the 2002 data and isolated a few instances in which data submissions
were miscalculated. Members of the committee have discussed these problems with the
grantees affected, and the problems have been resolved. To correct the problematic areas
identified in connection with the 2002 submissions, the MSR electronic forms and
instructions to be used in March 2004 (for reporting 2003 data) will include several minor
changes.

Diversity, Inclusion and Multi-Cultural Competency
        During the reporting period, LSC intensified its support of grantees and state
justice communities that seek to expand diversity in their organizations and improve
access for clients from underserved communities. A cornerstone of this effort is the
provision of trained facilitators to guide conversations on inclusion, and to help legal
services leaders craft strategies that will enhance the productivity of diversity activities.
During the reporting period, LSC provided this form of assistance to five (5) grantee
boards and two (2) state justice communities facing diversity challenges. Additional
grantees and state justice communities are in the process of receiving this kind of
assistance. Skilled facilitators employed by LSC for this purpose use the LSC diversity
manual with leadership groups, and they are now being deployed to guide grantees who
request this resource and assistance.

       LSC’s Vice President for Programs, Randi Youells, also promotes diversity
concerns in other contexts. An important aspect of diversity is the development of the
next generation of leaders, particularly from populations traditionally overlooked for
leadership positions, such as women, persons of color, and individuals with disabilities.
Through speaking engagements and articles for legal journals, the Vice President


                                             13
emphasizes the benefits grantees derive from staff and boards that reflect the cultural
experiences of the client communities they serve. During the reporting period, the Vice
President testified before the American Bar Association Commission on Women in the
Profession on the urgency of nurturing new leaders within LSC programs, and the
importance of promoting diversity in this effort. She also spoke on this subject to state
justice communities in Arizona, New Mexico and Oklahoma, among others, and at
grantee events in South Carolina, Vermont and Virginia.

        During the reporting period, LSC dedicated significant time to developing
guidance for its grantees on the provision of legal services to individuals with limited
English proficiency. An increasing number of grantees’ clients throughout the country
do not speak English well, if at all. In order to comply with federal civil rights laws and
LSC’s grant assurances, grantees must expand their service strategies and procedures to
include communities with limited English proficiency. During the reporting period, LSC
began preparation of a Program Letter providing guidance on this issue, which will be
transmitted to programs before the close of 2003. The letter addresses the importance of
bilingual staff and the translation of vital legal documents, as well as methods of
assessing both the size of limited English proficiency client populations and the legal
needs of such populations.

        In the process of promoting provision of legal services to clients with limited
English proficiency, LSC has learned that a greater number of legal services advocates
are bilingual today than ever before. More than 22 percent (22%) of staff in LSC-funded
programs report that they speak more than one language. This number has grown
continuously since 1999.

Civil Asset Forfeiture Reform Act
       During the year 2000, President Clinton signed into law the Civil Asset Forfeiture
Reform Act (“CAFRA”), Pub. L. 106-185, 114 Stat. 202. Among other things, CAFRA
provides that indigent persons whose homes are subject to civil forfeiture shall be entitled
to be “represented by an attorney for the Legal Services Corporation.” Although the
CAFRA provision involving LSC became effective in 2000, LSC only received one
request from court personnel for representation in a relevant case prior to 2003. During
the reporting period, however, LSC received several additional requests for
representation for cases in Maryland and Ohio. LSC has responded to each such request
by obtaining skilled counsel from the appropriate jurisdiction for each eligible client.

Rulemaking Activities
        During the reporting period, LSC published a revised index to 45 CFR Part 1626,
Restrictions on Legal Assistance to Aliens. The revised index does not make any
substantive change to the regulation, but rather sets forth an updated listing of the
documents LSC grantees may rely on in verifying eligibility of certain legal aliens for
legal assistance.



                                            14
         As of the end of this reporting period, the following three rulemakings remain
open: the outside practice of law (by full-time attorneys working for LSC grantees),
appearing at 45 CFR Part 1604; financial eligibility, appearing at 45 CFR Part 1611; and
restrictions on legal assistance to aliens, appearing at 45 CFR Part 1626.

Litigation Update

        In Legal Services Corporation v. Client Centered Legal Services of Southwest
Virginia, Inc., Civil Action No. 1:01 CV 00038 (W.D.V.A.), LSC sought to recover real
property purchased with LSC funds from a former grantee, in order to transfer the
property to its existing grantee and thereby retain scarce resources in the federally-funded
legal services community. On August 14, 2002, the United States District Court for the
Western District of Virginia, Abingdon Division, granted LSC’s motion for summary
judgment in the case and ordered the defendant to follow LSC’s directions regarding
disposition of the property. The defendant appealed the decision, and on September 23,
2003, the United States Court of Appeals for the Fourth Circuit heard arguments in the
case. On October 22, 2003, the appellate court issued an unpublished opinion affirming
the District Court’s decision, and adopting the rationale set forth in the lower court’s
opinion.

       On October 29, 2003, the United States Court of Appeals for the Second Circuit
issued a summary order affirming the decision of the United States District Court for the
Southern District of New York in Bronx Legal Services v. Legal Services for New York
City and Legal Services Corporation, Civil Action No. 02-CV-6199 (S.D.N.Y.). In this
case, Bronx Legal Services (“BLS”) challenged LSC’s state planning process and alleged
that through the process, Legal Services for New York City (“LSNY”) and LSC
attempted to gain control of BLS through a reorganization of LSNY and its subgrantees.
BLS also claimed that this alleged effort to gain control over it through a reorganization
of LSNY was in retaliation for BLS filing a lawsuit against LSNY and LSC opposing a
request of LSC’s Office of Inspector General for “confidential information.” (See Bronx
Legal Services, et al. v. Legal Services Corporation, Legal Services for New York City
and Edouard R. Quatrevaux, Civil Action No. 00 CIV 3423 (S.D.N.Y.)). If it wishes to
do so, BLS has ninety (90) days from the entry of judgment to appeal the decision to the
United States Supreme Court.

        Finally, in Bronx Legal Services, et al. v. Legal Services Corporation, Legal
Services for New York City and Edouard R. Quatrevaux, Civil Action No. 00 CIV 3423
(S.D.N.Y.), a matter in which LSC’s Office of Inspector General (“OIG”) requested
certain information from LSC grantees and the grantees thereafter filed suit against LSC
and the OIG, the plaintiffs filed a Petition for a Writ of Certiorari with the United States
Supreme Court. LSC filed an Opposition to the Petition for a Writ of Certiorari on
October 22, 2003. The plaintiffs filed the Petition for a Writ of Certiorari after the
United States Court of Appeals for the Second Circuit affirmed the decision of the United
States District Court for the Southern District of New York, holding that summary



                                            15
judgment had been appropriate because provision of the requested information to the OIG
would not be in conflict with New York State Codes, rules and regulations.

Work of the Office of Compliance and Enforcement
       LSC’s Office of Compliance and Enforcement (“OCE”) is charged with a number
of functions which ensure that recipients are in compliance with the LSC Act and
Regulations. These obligations currently include compliance investigations, prior
approvals of some expenditures and activities by grantees, on-site visits to scrutinize
compliance with regulations, and the provision of training to recipients.

On Site Visits

       From April 1, 2003, to September 31, 2003, OCE conducted on-site visits at the
following sixteen (16) programs:

   •   Native Hawaiian Legal Corporation: The purpose of this visit was to assess the
       program’s compliance with Case Service Reporting (“CSR”) and Case
       Management Systems (“CMS”). A final report has been sent to the program
       acknowledging the corrective action taken, and OCE will soon conduct a follow-
       up visit related to the CSR/CMS review.

   •   Legal Services of Northern Michigan: The purpose of this visit was to assess the
       program’s compliance with CSR reporting and CMS. A final report has been sent
       to the program. The program has addressed most of the issues raised in the
       report.

   •   Southern Minnesota Regional Legal Services: The purpose of this visit was to
       assess the program’s compliance with CSR reporting and CMS. A draft report
       was issued, and OCE is currently awaiting the program’s response.

   •   Guam Legal Services Corporation: The purpose of this visit was to assess the
       program’s compliance with CSR reporting and CMS. A draft report was issued,
       and OCE is currently awaiting the program’s response.

   •   Neighborhood Legal Services (Pittsburgh, Pennsylvania): The purpose of this
       visit was to conduct a follow-up to a prior CSR/CMS review. Prior issues have
       been addressed by the program, and a final letter is being prepared to send to the
       program.

   •   Montana Legal Services: The purpose of this visit was to assess the program’s
       compliance with CSR reporting and CMS. A final report has been sent to the
       program. The program is addressing the issues identified in the final report.




                                           16
   •   Community Legal Services (Phoenix, Arizona): The purpose of this visit was to
       assess the program’s compliance with CSR reporting and CMS. A draft report
       has been sent to the program. OCE is awaiting the program’s response.

   •   Northeast New Jersey Legal Services: The purpose of this visit was to assess the
       program’s compliance with CSR reporting and CMS. A draft report is being
       prepared to send to the program.

   •   Legal Aid of Southeastern Pennsylvania: The purpose of this visit was to assess
       the program’s compliance with CSR reporting and CMS. A draft report is being
       prepared to send to the program.

   •   Wyoming Legal Services: The purpose of this visit was to assess the program’s
       compliance with CSR reporting and CMS. A draft report is being prepared to
       send to the program.

   •   Neighborhood Legal Services (District of Columbia): The purpose of this visit
       was to assess the program’s compliance with CSR reporting and CMS. A draft
       report is being prepared to send to the program.

   •   Capital Area Legal Services (Baton Rouge, Louisiana): The purpose of this visit
       was to assess the program’s compliance with CSR reporting and CMS. A draft
       report was sent to the program together with a corrective action plan. The
       program responded, and OCE is drafting a final report.

   •   Utah Legal Services: The purpose of this visit was to conduct follow-up to a prior
       CSR/CMS review. OCE is preparing a letter for the program outlining the
       progress made and noting further corrective actions that are necessary.

   •   Legal Services Law Line of Vermont, Inc.: The purpose of this visit was to assess
       the program’s compliance with CSR reporting and CMS. A draft report is being
       prepared to send to the program.

   •   Statewide Legal Services of Connecticut: The purpose of this visit was to conduct
       follow-up to a prior CSR/CMS review. A final letter was sent to the program.

   •   Southwestern Pennsylvania Legal Services, Inc.: The purpose of this visit was to
       assess the program’s compliance with CSR reporting and CMS. A draft report is
       being prepared to send to the program.

A-50 Follow-Up

       During the reporting period thirty-five (35) findings were referred for A-50
follow-up. Management has reviewed and closed all referred findings. Additionally, one
(1) finding was referred to management for follow-up as a result of the Office of



                                           17
Inspector General's (“OIG”) program integrity audit of Legal Services of South Central
Michigan. Follow-up activities are currently pending review by LSC management.

Prior Approval Under 45 C.F.R. Part 1630

        During the reporting period, OCE reviewed and approved fifteen (15) requests
totaling $652,645 to lease or purchase personal/non-expendable property pursuant to 45
C.F.R. Part 1630.

Private Attorney Involvement under 45 C.F.R. Part 1614

        LSC’s Private Attorney Involvement (“PAI”) regulation, 45 C.F.R. Part 1614,
requires that all recipients devote an amount equal to at least 12.5% of their respective
Basic Field Grants to involve private attorneys in the delivery of legal assistance to
eligible clients. A provision of this regulation (i.e. 45 C.F.R. § 1614.6) allows recipients
to request either a partial or complete waiver of this requirement in circumstances in
which they have been unable to meet the obligation during a given year. If a recipient’s
circumstances warrant a waiver, OCE will either waive the requirement and adjust the
requirement for that year by the amount of the shortfall, or increase the next year’s
requirement by the amount of the shortfall. During the reporting period, OCE granted
one (1) waiver request pursuant to 45 C.F.R. § 1614.6.

        All follow-up on PAI compliance is conducted during the review of the
recipient’s audit report for the following grant year, and if necessary, the PAI program is
reviewed as part of the CSR/CMS review.

Subgrants Under 45 C.F.R. Part 1627

       Pursuant to 45 C.F.R.1627.1, a recipient may subgrant a portion of its LSC
funding to another entity to conduct certain activities related to the recipient’s
programmatic activities. Such activities include those that would otherwise be
undertaken by the recipient itself, such as representation of eligible clients, or activities
which provide direct support to a recipient’s legal assistance activities, such as a PAI
component.

       OCE approved nineteen (19) recipient subgrants during the noted time period.

Fund Balances Under 45 C.F.R. Part 1628

        LSC recipients whose annual audits report fund balances in excess of ten percent
(10%) of their total LSC annualized support, are required to request a waiver from LSC
pursuant to 45 C.F.R. § 1628.4, in order to carry over the excess balance to the following
year. Recipients may request a waiver to retain fund balances in excess of 25% of LSC
support only for extraordinary and compelling reasons. In the absence of a waiver, LSC
is required to recover the excess fund balance pursuant to 45 C.F.R. §1628.3.




                                             18
       During the reporting period, OCE reviewed and approved nineteen (19) fund
balance waiver requests totaling $1,264,125.

        When OCE grants a fund balance waiver, it informs the relevant program that the
excess fund balance should be reported separately in the recipient’s next audit, either as a
separate fund or by a supplemental schedule in the audit report. The separate reporting is
by line item to show exactly how the excess fund balance was spent. OCE ensures that
the excess fund balance is reported appropriately through its review of the recipient’s
annual audit.

Complaint Investigations

        OCE is responsible for the review, investigation and disposition of complaints
filed by members of the public (e.g. applicants, clients, local recipients, staff and Board
members, opposing counsel/parties, taxpayers, etc.) related to the activities of LSC
recipients. During the reporting period, thirty-three (33) such complaints were closed.
The majority of the complaints closed during the reporting period involved denial of
services (i.e. complaints from applicants who were financially ineligible, outside of
program priorities, or requesting assistance with fee-generating cases or other cases
prohibited by Congressional restrictions).

Audit Reports

        The fiscal year cycle adhered to by LSC grantees differs from program to
program. While the majority of grantees operate on the fiscal year cycle that ends on
December 31st of each year, others adhere to cycles that end on January 31st, March
31st, May 31st, June 30th, or September 30th respectively. LSC grantees must submit
their audit reports (including audited financial statements) to LSC’s OIG within 120 days
of the end of their respective fiscal years.

        The OIG ensures that all grantees submit their audit reports to LSC in a timely
fashion. OCE then reviews the audited financial statements for compliance with the
Accounting Guide for LSC Recipients (issued in August 1997) and LSC financial-related
regulations (i.e. 45 C.F.R. Parts 1610, 1614, 1627, 1628, 1630, 1631, and 1642).

        After the OIG reviews and processes grantees’ audit reports in its audit tracking
system (AIMS), a copy of each grantee’s audit report is sent to OCE. During the
reporting period, OCE reviewed forty-two (42) audit reports forwarded to it by the OIG.




                                            19
                                        TABLE 1

                               Management Report on
                   Office of Inspector General Audits of Grantees
                            Issued With Questioned Costs
                              For the Six Month Period
                             Ending September 30, 2003


                                                      Number of     Disallowed
                                                       Reports        Costs
A. Audit Reports for which final action had not
   been taken by the commencement of the                   0           $0
   reporting period.

B. Audit Reports on which management
   decisions were made during the reporting                0           $0
   period.

   Subtotals (A + B)                                       0           $0

MINUS:

C. Audit Reports for which final action was
   taken during the reporting period:                      0           $0

      (i)    Dollar value of disallowed costs
             that were recovered by management
             through collection, offset, property
             in lieu of cash, or otherwise.                0           $0

      (ii)   Dollar value of disallowed costs
             that were written by management.              0           $0

D. Audit Reports for which no final action has
   been taken by the end of the reporting period.          0           $0

   Audit Reports for which no final action had
   been taken within six months of issuance                0           $0




                                           20
                                        TABLE 2

              Management Report on Audit Reports Issued During
               The Six Month Period Ending September 30, 2003,
     With Recommendations That Funds Be Put to Better Use By Management
                     Agreed to in a Management Decision

                                                    Number of             Dollar
                                                     Reports              Value
A. Audit Reports for which final action had not
   been taken by the commencement of the               0                   $0
   reporting period.

B. Audit Reports on which management
   decisions were made during the reporting            0                   $0
   period.

   Subtotals (A + B)                                   0                   $0

MINUS:

C. Audit Reports for which final action was
   taken during the reporting period:                  0                   $0

   (i)     Dollar value of recommendations that
           were actually completed.                    0                   $0

   (ii)    Dollar value of recommendations that
           management has subsequently
           concluded should not or could not be
           implemented or completed.                   0                   $0

D. Audit Reports for which no final action has
   been taken by the end of the reporting period.      0                   $0

  Audit Reports for which no final action had
  been taken within six months of issuance.            0                   $0




                                            21
`````




            Basic Field General Service Areas Affected by Mergers and Consolidations - 1997 to 2004
                                                                     In Planning ==> Merger Planning in Process

`
                                                                             OSP ==> Original Statewide Program

                        Washington                                                                                                                            Michigan
                          OSP                                                                                                                                  11 to 5
                                                        Montana                                                                                                                                                          Maine
                                                                                       North Dakota                                                                                                     Vermont          OSP
                                                         OSP                                                                                                                                             OSP
                                                                                          2 to 1           Minnesota
                     Oregon                                                                                    In                                                                  New York
                      4 to 3                                                                               Planning                                                                 15 to 7                             New Hampshire
                                                                                                                                                                                                                            OSP
                                         Idaho                                                                                Wisconsin                                                                                     Massachusetts
                                          OSP                                         South Dakota                              4 to 2                                                                                        In Planning
                                                            Wyoming                      3 to 2                                                                                                                            Rhode Island
                                                             OSP                                                                                                                                                               OSP
                                                                                                                                                                                                                        Connecticut
                                                                                                                   Iowa                                                            Pennsylvania                            OSP
                                                                                         Nebraska                  2 to 1                                                            19 to 8
                               Nevada                                                                                                                                                                         New Jersey
                                                                                          3 to 1                                                                    Ohio
                                OSP                                                                                                                                                                             14 to 6
                                                                                                                                                                   16 to 6
                                                 Utah                                                                                 Illinois      Indiana                                                    Delaware
        California                                                                                                                                   4 to 1                    West                              OSP
                                                 OSP              Colorado                                                             5 to 3
        21 to 11                                                                                                                                                              Virginia
                                                                   3 to 1                                                                                                                Virginia
                                                                                                  Kansas            Missouri                                                  3 to 1                            Maryland
                                                                                                                                                                                         13 to 6
                                                                                                   OSP            In Planning                                 Kentucky                                           OSP
                                                                                                                                                               7 to 4                                           Dist. of Col.
                                                                                                                                                                                     North Carolina                OSP
                                                                                                                                                     Tennessee
                                                                                                                                                                                         4 to 1
                                                                                                                                                       8 to 4
                                        Arizona                                                      Oklahoma
                                         4 to 2            New Mexico                                  2 to 1          Arkansas                                              South Carolina
                                                             3 to 1                                                      5 to 2                                                  5 to 1

                                                                                                                                    Mississippi     Alabama              Georgia
                                                                                                                                      6 to 2           3 to 1              2
                                                                                                                                                    (in 2005)

                                                                                        Texas
                                                                                        11 to 3                         Louisiana                                                                   Florida
                         Alaska                                                                                           8 to 4                                                                    12 to 7
                          OSP

                                                                                                                       New Service Area
                                                            Hawaii                                                         for 2004
                                                             OSP                                                                                                                                          Virgin Islands OSP
                                                                                                                                                              Guam OSP

                                                                                                            American Samoa
                                                                                                                                                  Micronesia OSP                                                      Puerto Rico
                                                                                                                                                                                                                      In Planning
